  U.S. Department of Education
Office of Inspector General




Semiannual Report
      to Congress
           No. 39


   April 1 –September 30, 1999
             INSPECTOR GENERAL 'S HOTLINE

Anyone knowing of fraud, waste, or abuse involving Department of Education
funds or programs should call or write the Inspector General's Hotline.


                       THE TOLL-FREE NUMBER IS :

                    1-800-MIS-USED (1-800-647-8733)


                       THE MAILING ADDRESS IS:

                       Inspector General's Hotline
                       Office of Inspector General
                      U.S. Department of Education
                            330 C Street, SW
                      Washington, DC 20202-1510


          Your report may be made anonymously or in confidence.




               YOUR ATTENTION, PLEASE!
            The ED/OIG Semiannual Report to Congress
            is also available on the ED/OIG Website, at

        http://www.vais.net/~edoig/sarpages.htm/
                      INSPECTOR GENERAL’S
                    MESSAGE TO CONGRESS


In June of this year, I became the Inspector General of the U.S. Department of
Education and immediately found myself a member of two distinguished
communities: the Department of Education and the President's Council on
Integrity and Efficiency (PCIE). The last several months have been instructive for
me, and I am encouraged by the working relationships I have developed with the
Secretary and other Department officials, Members of Congress and their staff,
and other Inspectors General.

I am cognizant of the exceptional character and singular significance of the
mission of the Office of Inspector General. I am committed to that mission. My
office is working cooperatively with both the Secretary and the Congress so that
our audits, investigations, inspections and other work products help the
Department carry out its own mission with the highest levels of efficiency,
effectiveness and integrity. For example, we continue to oversee the critically
important efforts to ensure that the Department, its grantees and contractors are
Year 2000 (Y2K) compliant. In July, we issued our second report to Congress on
the Y2K readiness of the Department's student financial assistance programs.

My office is providing Student Financial Assistance  the Department's
Performance-Based Organization  with continual feedback on the
Modernization Blueprint and recommendations for improving accountability and
fraud control. I am proud to announce that the PCIE recently honored this Office
for a successful long-running investigation to root out fraud in the Pell Grant
program.

We previously reported that our audit of the Department’s financial statements
would be delayed because the Department’s financial records were not ready for
audit. In mid-November we will be transmitting a disclaimer of opinion on the
Department’s Fiscal Year 1998 financial statements, primarily because of
financial reporting weaknesses in the Department’s automated system. The
Department also did not adequately perform reconciliations and could not
provide sufficient documentation supporting transactions. My office and the
Department are working to address these issues and are committed to achieving
the March 1, 2000 statutory reporting date.

We are focusing on the Department's implementation of the Government
Performance and Results Act. My office has worked with the Department to
develop data quality training for managers and staff to help them prepare the
fiscal year 1999 performance report. We will be reviewing the Department's
processes to ensure that data on its programs are reliable and valid. These
efforts will assist Congress in their review of the Department's first performance
report.

I look forward to continuing our work with the Secretary and other Department
officials and the Congress, helping them ensure that our education programs
serve the nation's students and taxpayers.




                                       Lorraine Lewis
                                                 CONTENTS


Letter to the Secretary

Inspector General's Message

Significant Activities and Accomplishments .............................................1

P.L. 95-452 Reporting Requirements .....................................................14

Statistical Tables
q   Recommendations Described in Previous Semiannual Reports on Which
    Corrective Action Has Not Been Completed ......................................................................15

q   ED/OIG Reports on Education Department Programs and Activities...............................17

q   Inspector General Issued Reports with Questioned Costs ................................................19

q   Inspector General Issued Reports with Recommendations for
    Better Use of Funds..........................................................................................................20

q   Unresolved Reports Issued Prior to April 1, 1999 .............................................................21

q   Investigation Services Cumulative Prosecutive Actions.....................................................23

q   Collections from Audits and Investigations.......................................................................28

q   Statistical Profile...............................................................................................................29
                         DRAFT
                SIGNIFICANT ACTIVITIES
                AND ACCOMPLISHMENTS
The Office of Inspector General (OIG) continues to focus its work effort and resources
on some of the most significant challenges facing the U.S. Department of Education
(ED or the Department and Congress). Chief among these challenges are the
preparation for Year 2000 (Y2K), the Department’s production of auditable financial
statements, and the Student Financial Assistance Programs (SFA) modernization effort
and management of the SFA programs.

YEAR 2000
Our review of the Department’s Y2K compliance for processing, delivery, and
administration of the SFA programs found that the Department substantially
completed implementation and end-to-end testing of its internal systems. Survey
results raise concerns that a significant percentage of postsecondary institutions
might be at risk for Y2K-related failures. The seriousness of this issue warrants
outreach by Congress (page 2).

FINANCIAL STATEMENTS
The Department will receive a disclaimer of opinion on its Fiscal Year (FY) 1998
financial statements, primarily because of financial reporting weaknesses in its
automated system. The Department also did not adequately perform reconciliations
and could not provide sufficient documentation supporting transactions. The
Department is working to address these issues, and the OIG and its independent
public accountant are working closely with the Department on the FY 1999 financial
statements. The Department and the OIG are committed to achieving the March 1,
2000 statutory reporting date (page 4).

STUDENT FINANCIAL ASSISTANCE
The SFA programs continue to constitute one of the Department’s greatest
management challenges. Congress authorized creation of a Performance-Based
Organization (PBO) in SFA. This period we identified both systemic weaknesses and
individual instances of fraud that have caused financial losses to the Department and
to taxpayers ranging from a few thousand dollars to millions of dollars. The
Department is working to address many of the recommendations we have made for
improving accountability and fraud control. During the reporting period, OIG provided
comments and technical assistance relating to SFA’s drafts of the Customer Service
Task Force Report, the Modernization Blueprint, and the Five Year Performance Plan
(page 6).

ADDITIONAL SIGNIFICANT ACTIVITIES
The OIG also reviewed the Department’s contract monitoring oversight and various
initiatives and programs in the elementary and secondary education area, specifically,
school-to-work and schoolwide programs. We continue to advise the Department in
its implementation of the Government Performance and Results Act.

                                           1
The OIG is committed to improving the quality of independent public accountant (IPA)
audits of participants in the Department of Education grant and loan programs. We
provide a high level of technical assistance to IPAs, and we also perform quality control
reviews of their audits.

Descriptions of these and other significant OIG activities and accomplishments of the
reporting period appear below. They are organized under the major headings of
Departmental Operations and Departmental Programs. Tables containing statistical
information pursuant to the requirements of the Inspector General Act of 1978 (Public
Law 95-452, as amended) follow on page 14.



                  DEPARTMENTAL OPERATIONS

                         INFORMATION TECHNOLOGY
The OIG continued to focus its efforts on the Department’s management of information
technology. During this period, we closely monitored the Department’s progress
toward Year 2000 readiness. We also resolved pending recommendations from our
1998 audit of the Department’s Clinger-Cohen Act implementation, and reported on
the acquisition process for the SFA information systems. Additionally, the Department
recently hired a new chief information officer (CIO), and SFA filled a CIO position in its
organization. We will work with both CIOs to discuss their priorities and will address
them in our work plans.


YEAR 2000
The Department has made significant progress in preparing for the Year 2000. This
period, the Department reported that its mission-critical systems were renovated,
tested, and implemented by the March 31, 1999 deadline set by the Office of
Management and Budget. The OIG continues to monitor the Department’s progress in
preparing for the Year 2000.

Y2K Compliance of SFA                           made. However, ED cannot ensure that
Delivery Systems                                its trading partners will be Year 2000
                                                compliant.
Our review of the Department’s Y2K
compliance for processing, delivery, and
                                                We reported our concerns about the Y2K
administration of the SFA programs
                                                readiness of postsecondary institutions.
(ACN: S11-90016, issued July 16, 1999 )         Survey results indicate that a significant
was the second of two reports on Y2K            percentage of postsecondary institutions
required by the Higher Education Act            could be at risk for Y2K-related failures.
Amendments of 1998. We found that ED            Because of the seriousness of this
substantially completed implementation          problem, we recommended that members
and end-to-end testing of its internal          of Congress promote Y2K awareness at
systems. The Department performed               postsecondary institutions in their
extensive outreach efforts with its             districts and states.
trading partners to promote awareness,
provide technical assistance, and learn         ED has made substantial progress in
about the progress these entities had           developing its business continuity and

                                            2
contingency plans, but the Department            performing their functions effectively.
needs to continue its efforts to develop,        Second, we found that five of the six
test and refine its plans.                       agencies had not established Y2K
                                                 contingency plans, although three of the
Y2K Readiness at Guaranty Agencies               five had plans to do so. Third, the
                                                 Department needs to actively monitor
Our review of Y2K readiness at six               guaranty agencies that implement new
guaranty agencies (ACN: 11-80015,                systems in 1999.
issued May 4, 1999) identified three
issues the Department needs to address           OIG conducted assessments at five
as it continues to monitor the 36                additional guaranty agencies. We will
guaranty agencies participating in the           report the results in our next Semiannual
Federal Family Education Loan Program.           Report.

First, entities could receive erroneous          In September the Inspector General
data or no data if one or more of their          spoke to a group representing guaranty
data exchange/trading partners have              agencies, and discussed the results of
computer failures. These failures could          OIG’s Y2K work.
make the entities incapable of


MANAGEMENT OF INFORMATION TECHNOLOGY
OIG activities related to the Department’s management of information technology were
wide-ranging.

Clinger-Cohen Act                                Information Technology Acquisition
The Clinger-Cohen Act of 1996 (Public            Our audit of the Department’s
Law 104-106) requires agency chief               acquisition process for the SFA
information officers to develop, maintain,       information systems (ACN: 11-80004,
and facilitate the implementation of a           issued May 17, 1999) disclosed several
sound and integrated information                 weaknesses in SFA’s process for
technology architecture. Student                 acquiring information technology (IT)
Financial Assistance has made progress           systems. Most critical was the absence
in resolving the concerns we raised              of a formal IT acquisition process that
about its ability to comply with Clinger-        clearly defined the roles and
Cohen Act requirements in our 1998               responsibilities of involved parties and
audit report (ACN: A11-70001, issued             offices, resulting in inconsistency, poor
March 1998). This period, we advised             communication, and indecisiveness. We
the Department that we consider the              also noted inadequate planning,
issue resolved. The Department has               acquisition timeframes that were too
developed a comprehensive corrective             lengthy to be practical, and the fact that
action plan and is working to implement          most of the employees with key roles in
all of our recommendations. We will              the process had limited training,
continue to monitor the Department’s             experience, and education in the field of
compliance with Clinger-Cohen                    electronic data processing. The
requirements.                                    Department’s response indicated general




                                             3
agreement with our audit findings. We         (OCFO) management could strengthen
concluded fieldwork in October 1998,          overall accountability and control. We
prior to the creation of SFA as a             recommended that OCFO management
Performance-Based Organization.               implement its configuration management
                                              plan. This included addressing all key
GAPS Configuration Management                 roles and responsibilities, improving the
Process                                       identification of key configuration
                                              components, addressing configuration
Our review of the Grant Administration
                                              management controls, and performing
and Payment System (GAPS) configura-
                                              configuration audits. OCFO expressed
tion management process (ACN: A11-
                                              agreement with our audit findings.
90004, issued May 7, 1999) found areas
where Office of Chief Financial Officer


MANAGEMENT OF INFORMATION TECHNOLOGY CONTRACTS
In January 1998, the OIG initiated a two-year project to review information system
contractors for SFA programs. The review included evaluation of performance
monitoring by the contractor and Department staff.

The Department Can Improve Its                 q    were not aware of key personnel
Contract Monitoring Oversight                       changes, or that key personnel
                                                    were not dedicated to the contract
We found that Department officials                  as required (ACN: A07-80018,
q   authorized new tasks, but had not               dated May 1999).
    formalized the tasks into the
    contract (SFA Action Memorandum            Without effective oversight, the
    99-01, dated October 1998) ;               Department has no assurance that
                                               contractors adhered to contract terms
q   did not monitor reimbursements             and provided the products or services
    due the Department on one                  for which they were paid. We
    contract (SFA Action Memorandum            recommended corrective actions, with
    99-02, dated November 1998) ; and          which the Department agreed, to
                                               address the problems we identified.


                      FINANCIAL STATEMENT AUDIT
FISCAL YEAR 1998 FINANCIAL STATEMENT AUDIT
The draft audit reports on the Department’s Fiscal Year (FY) 1998 financial statements
will be released in November 1999. The independent public accountant under
contract to the OIG will issue a disclaimer of opinion on the FY 1998 financial
statements.

New Accounting System Poses                   such as the system’s inability to perform
Problems                                      a year-end closing process or produce
                                              automated consolidated financial
The Department of Education operated
                                              statements, were significant factors in
under a new accounting system in FY
                                              the Department’s inability to prepare
1998, and the auditors discovered
                                              accurate consolidated financial
several limitations in the financial
                                              statements in a timely manner.
reporting process. These weaknesses,

                                          4
Auditors Could Not Express Opinion                problems in time for the preparation of
For FY 1998                                       FY 1999 financial statements.
Because of these and other problems —
                                                  Department Needs to Resolve Issues
including the fact that the Department
did not adequately perform reconcilia-            In addition to disclaiming an opinion, the
tions and could not provide sufficient            report on internal controls identified
documentation supporting transactions             other issues which are systemic in
— the scope of work was not sufficient to         nature, and which the Department must
enable the auditors to express an                 address to prepare timely and accurate
opinion on the FY 1998 financial                  financial statements. The Department is
statements. The Department is currently           working to address system limitations
replacing part of its financial systems.          and internal control weaknesses, and the
In the interim, the Department has                OIG and its independent public
developed short-term automated                    accountant are working closely with the
solutions that it believes will allow it to       Department on the FY 1999 financial
overcome some of the serious systems              statements. The OIG and the
                                                  Department are committed to achieving
                                                  the March 1 statutory reporting date.


          GOVERNMENT PERFORMANCE AND RESULTS ACT
The Results Act required federal agencies to submit five-year strategic plans and
annual plans beginning with Fiscal Year 1999. The Results Act also requires agencies
to prepare annual performance reports beginning with fiscal year 1999. The first
report is due in March 2000.

OIG Advisory Efforts                              review to identify controls that ensure
                                                  the reliability of data submitted by state
During this period, we continued to
                                                  education agencies (SEAs) for the Title I
participate in an advisory capacity to the
                                                  of ESEA and Perkins Vocational
Department in its implementation of the
                                                  Education programs. We will detail the
Results Act. The OIG worked with the
                                                  results of this work in an information
Department on its data quality
                                                  report that we will issue during the next
standards and the development of
                                                  reporting period. The OIG is currently
training on those standards.
                                                  performing similar work assessing the
Department managers will use the
                                                  Individuals with Disabilities Education
standards to make an assertion about
                                                  Act, Part B data that SEAs submit. In
the reliability of data used to inform
                                                  addition, the OIG has begun a readiness
performance indicators in the annual
                                                  assessment to determine if the
performance report.
                                                  Department’s program offices will be
                                                  prepared to report on the performance
Ensuring the Reliability of Data                  indicators for the March 2000 report.
This period, we presented to Department
managers the preliminary results of our




                                              5
                  DEPARTMENTAL PROGRAMS

                     STUDENT FINANCIAL ASSISTANCE
The SFA programs have historically constituted the greatest portion of OIG’s
investigative caseload, as well as a significant percentage of our audit effort.

MODERNIZATION BLUEPRINT
The Modernization Blueprint is SFA’s plan to overhaul the Department’s student aid
delivery system. We provided feedback on drafts of the Blueprint. Our comments
presented suggestions to help SFA manage risks during implementation of the
Blueprint. The Blueprint is available on the Internet at www.easi.ed.gov . During the
reporting period, we also provided comments on drafts of the Customer Service Task
Force Report and the Five-Year Performance Plan.

HIGHER EDUCATION AMENDMENTS
On October 7, 1998, the President signed into law the Higher Education Amendments
of 1998, amending the Higher Education Act of 1965. Before publishing any proposed
regulations to implement programs under Title IV, the Secretary was required to
conduct a negotiated rulemaking process to develop proposed regulations.

OIG Staff Contributions to                      to provide appropriate advice and
Negotiating Committees                          technical assistance to the Department.
The Secretary of Education formed
                                                After publishing the Notice of Proposed
negotiating committees to address issues
                                                Rulemaking for each regulatory package
pertaining to lender and guaranty
                                                resulting from the process, the Depart-
agencies, loans, refunds, program and
                                                ment prepared the Final Regulation
student eligibility, and institutional
                                                package based on comments received.
eligibility. The committees met from
                                                The Department published the Final
January through June 1999.
                                                Regulations on November 1, 1999.
Representatives from the Office of
Inspector General attended the sessions

DISCHARGE OF STUDENT LOANS
SFA requested an audit of the process for forgiving student loans. Our audit report
“Improving the Process for Forgiving Student Loans” (ACN: 06-80001, issued June 7,
1999) revealed control weaknesses in the discharge of student loans. Correcting these
deficiencies could result in the better use of $35 million annually.




                                            6
Inappropriate Discharges                        Department’s many planned corrective
                                                actions in response to our audit report.
Our audit disclosed that student loans
                                                The intent is to identify suspected
are being discharged (forgiven) for total
                                                abusers, reinstate the loans with accrued
and permanent disability and death,
                                                interest, and pursue criminal
even though the borrowers are
                                                prosecution when warranted.
apparently not totally and permanently
disabled or deceased. Inappropriate
                                                Guilty Plea in Fraudulent Discharge
discharges are occurring because of
control weaknesses in the current               The first OIG criminal case involving
system for determining borrower                 disability discharge fraud was indicted
eligibility for the disability or death         during this period and the defendant
discharge. We recommended that SFA              recently entered a guilty plea. On
implement enhanced procedures, and              September 1, 1999, a student borrower
provide guidance to guaranty agencies.          was indicted in Ohio on two counts of
These recommendations are intended to           false statements. The investigation
improve accountability and fraud                revealed that the student made
control.                                        misrepresentations about his medical
                                                condition to obtain a doctor’s
Departmental Actions                            certification stating that he was
                                                permanently and totally disabled. The
Following the issuance of our audit
                                                certification discharged his obligation to
report, representatives of OIG and SFA
                                                repay five federally guaranteed student
met to collaborate on methods for
                                                loans involving accrued interest and
identifying borrowers who may have
                                                administrative fees totaling $27,855.
submitted false death or disability forms
to have their student loans discharged.
This joint initiative is one of the


COST STUDY FOLLOW-UP
In our last Semiannual Report (No. 38 , pages 6 and 20), we discussed the study that
we conducted to assess the impact of cost issues on the Federal Family Education
Loan and Federal Direct Loan Programs.

Testimony on Cost Issues                          likely affect the Department’s
                                                  administrative costs in both programs.
This period, the Assistant Inspector
                                                  The testimony stated that neither
General for Audit testified before the
                                                  program, FDLP nor FFELP, was
House Subcommittee on Criminal
                                                  cheaper or more efficient than the
Justice, Drug Policy and Human
                                                  other.
Resources, Committee on Government
Reform about this cost study. The
                                                  Additionally, we shared our report’s
testimony reported our two principal
                                                  recommendations designed to address
conclusions: 1) that in any given year,
                                                  cost inefficiencies and improve the
Federal Direct Loan Program (FDLP) or
                                                  management of both programs.
Federal Family Education Loan Program
                                                  The Acting Deputy Secretary and the
(FFELP) total costs (administrative and
                                                  Chief Operating Officer, SFA, also
subsidy) may be greater, given the effect
                                                  testified at this hearing.
of prevailing economic conditions on
subsidy costs; and 2) that inefficiencies



                                            7
PATTERNS OF FRAUD
OIG investigations continue to identify patterns of fraud against both the loan and Pell
Grant programs. This period the majority of our cases fell into three general areas:
eligibility fraud, default fraud, and refund fraud.

Our efforts in investigating eligibility fraud were recognized by the President’s Council
on Integrity and Efficiency in September 1999, when agents from our New York office
and two federal prosecutors received an Award for Excellence. The award was based
upon the investigation and conviction of four members of a multi-million dollar Pell
Grant fraud scheme at Toldos Yakov Yosef Seminary (see Semiannual Report No. 38,
page 23).

Eligibility Fraud                                    $38,848. The defendant obtained
                                                     SFA for ineligible students by
Our investigations revealed school
                                                     filling out false enrollment
owners who fraudulently obtained Pell
                                                     applications.
Grants, student loans, and other SFA
program funds for persons who never
                                                q    A student was sentenced in
attended the schools. Employees at
                                                     Milwaukee, Wisconsin, to 17
postsecondary institutions also
                                                     months incarceration, three years
sometimes took advantage of their
                                                     supervised release, and ordered to
positions to defraud the SFA programs.
                                                     pay $87,832 restitution.
In addition, we conducted investiga-
                                                     Investigation disclosed that he
tions of Free Application for Federal
                                                     falsely represented having a
Financial Aid fraud by recipients.
                                                     baccalaureate degree, thereby
The schemes involved a variety of                    obtaining Pell Grants for which he
means including falsification of                     was not eligible.
documents leading to prosecution
under federal criminal statutes covering        OIG continues to devote investigative
SFA fraud, wire fraud, mail fraud, and          resources to cases involving individuals
other criminal charges.                         who have defrauded the Federal Family
                                                Education Loan Program by falsely
q   The owner of Midwest Career                 claiming enrollment in foreign
    College, Indianapolis, Indiana, pled        institutions. Recent investigations
    guilty to student aid fraud and             reinforce our concern that FFELP is still
    conspiracy. Investigation found             vulnerable to fraud in the area of
    that he obtained Pell Grants for            individuals who procure financial aid,
    persons who did not attend the              but fail to attend foreign schools. In a
    school. He also failed to pay Pell          1997 report, the OIG brought the
    Grant and student loan refunds.             vulnerabilities to the Department’s
    He was recently sentenced to 41             attention, and made recommendations
    months incarceration and ordered            for improving accountability and fraud
    to pay restitution of $205,000.             control.

q   A college work-study employee at            q    Between 1996 and 1999, an
    Lassen Community College,                        individual allegedly submitted
    Alturas, California, was sentenced               about 37 FFELP applications
    to 30 months imprisonment and                    falsely claiming enrollment at four
    ordered to pay restitution of                    schools in Mexico. At the time, he



                                            8
    was on federal supervised release.          q       The owner of Franklin School of
    (He had previously been convicted                   Cosmetology in New Jersey was
    of defrauding the FFELP of some                     sentenced to more than four years
    $160,000 by falsely claiming                        of incarceration, and ordered to
    attendance at a foreign medical                     pay restitution in excess of
    school). The 37 applications,                       $840,000 for his role in a scheme
    which he allegedly submitted to                     to lower his school’s cohort default
    four guaranty agencies, resulted in                 rate. Under his direction,
    the disbursement of approximately                   employees submitted hundreds of
    $319,680. He was re-arrested in                     forged and fraudulent documents
    August 1999.                                        to two loan-servicing agencies in
                                                        an effort to place students
q   Two defendants were sentenced to                    unknowingly into forbearance and
    lengthy probation periods and                       deferment. The owner’s sister pled
    ordered to make full restitution in                 guilty, and two school employees
    Sacramento, California, for                         were sentenced for their roles in
    engaging in a scheme to commit                      the fraud. The effect of their action
    mail fraud to receive federal                       was to reduce the school’s cohort
    student loan funds allegedly to                     default rate in the third year from
    attend Le Cordon Bleu School of                     55.3 percent to 9.5 percent, and
    Cooking, United Kingdom. Our                        maintain eligibility for SFA for
    investigation showed that they                      another year.
    falsified various documents to
    make it appear that they were               The OIG believes a provision of the
    attending the cooking school.               Higher Education Amendments of 1998
    Instead, they and one other                 will make this type of fraud significantly
    individual defrauded or attempted           more difficult, if not impossible, to
    to defraud ED out of approximately          prove in the future. Congress deleted
    $73,000.                                    the requirement that forbearance
                                                requests be in writing (Section 428
Default Fraud                                   (c)(3)). The OIG used the fraudulent
                                                written forbearance requests prepared
Our investigative efforts have identified       by the Franklin School of Cosmetology
instances of default fraud by both              to prove the fraud and tie it to
schools and student recipients.                 particular individuals.
Schools are subject to termination from         Individuals who have previously
SFA programs – including the Pell               defaulted on a student loan are
Grant programs and the loan programs            ineligible for subsequent student loans,
– when their cohort default rate for the        unless the debt is resolved or the loan
three most recent consecutive years is          is rehabilitated. Investigations have
equal to or greater than 25 percent.            identified individuals who have on their
Our investigations have disclosed               student aid applications concealed
school owners and officials who                 previous defaults, thereby obtaining
fabricate or forge loan deferments and          SFA for which they were ineligible.
forbearances for their former students,
who would otherwise go into default                 q    Our National Default Project
and cause the school’s cohort default                    focused on student borrowers
rate to reach above the threshold rate                   who received financial aid after
for the termination in the third year.                   having previously defaulted on



                                            9
    student loans. (See Semiannual                   incarceration for failure to refund
    Report No. 37, page 18, for a                    more than $500,000 in Title IV
    description of our audit report,                 refunds for 278 students. After
    “Applicants with Defaulted Student               the students withdrew or stopped
    Loans Continue to Receive Student                attending, the owner retained the
    Aid,” ACN 06-70004, issued June                  funds that should have been
    23, 1998 .) The results of the                   returned to ED. As a part of her
    project included 21 prosecutions                 plea, she agreed to pay $914,000
    with $323,580 in criminal                        in restitution for unpaid refunds
    restitution and civil recoveries.                and credit balances owed to
    Not all of the prosecutions were in              students.
    this reporting period, and some
    actions are still pending.                   q   After nine years of investigation,
                                                     prosecution, and appeals, the
Refund Fraud                                         owner and operator of California
                                                     Institute in Long Beach, California,
OIG investigations continue to identify
                                                     was sentenced to 46 months of
school officials who fail to pay Pell
                                                     incarceration and ordered to pay
Grant and loan refunds to the Depart-
                                                     $250,000 restitution. Investigation
ment of Education or lenders when
                                                     disclosed that he had retained
students withdraw, or fail to attend.
                                                     about $6.3 million in guaranteed
                                                     student loans for students who did
q   The owner of Interstate Business
                                                     not complete their training.
    College in North and South Dakota
    was sentenced to 18 months of


CIVIL FILINGS
The following civil actions took place during the reporting period.

q   The United States Attorney for the           Two civil settlement agreements were
    Northern District of Illinois filed a        filed in U.S. District Court, Northern
    False Claims Act lawsuit against             District of Ohio, between the United
    Chicago-based Corus Bankshares,              States in a False Claims Act suit and a
    Inc., and its subsidiary Corus               school owner and his son. The owners
    Bank, N.A. The lawsuit alleges               agreed to pay $1 million and the
    that Corus submitted thousands of            corporation agreed to pay an additional
    fraudulent insurance claims for              $500,000. In 1986 the school owner
    defaulted student loans during the           admitted that Programming & Systems,
    period 1988 through 1994. The                Inc. misrepresented its withdrawal
    alleged fraudulent claims resulted           rates to the Department and accrediting
    in payments totaling in excess of            agencies. The school chain
    $11.8 million. Corus Bankshares,             misrepresented the rates in order to
    Inc. and Corus Bank, N.A. filed an           maintain their accreditation, a
    answer denying liability and a               prerequisite for federal financial aid.
    counter-claim and third-party
    complaint in response to the
    lawsuit.




                                            10
The United States filed a False Claims           that CSC submitted false and
Act suit in U.S. District Court for the          fraudulent claims to the Department for
District of Columbia against CSC                 the payment of commissions in 1995
Accounts Management, Inc., doing                 and 1996. The scheme allegedly
business as CSC Credit Services. The             involved the falsification of loan
Department of Justice intervened in a            documents and the making of false
qui tam action filed previously by               certifications concerning student loan
several former employees of the firm.            consolidations. Many of these newly
CSC Accounts Management, Inc. was a              consolidated loans have since
private debt-collection agency under             defaulted. The United States seeks
contract with ED to collect defaulted            damages in excess of $5 million.
student loans. The complaint alleges

MATCHING RECORDS
In Semiannual Report No. 37 (page 5) we discussed the systemic weaknesses that
facilitate certain types of fraud against the student aid programs. We noted our
office’s strong support for the legislation to allow for the matching of applicant income
data with Internal Revenue Service (IRS) records. While the Higher Education Act
Amendments of 1998 authorized such a match, the IRS believes that additional
legislation is needed. At the end of this reporting period, the Department of Education
and the Department of the Treasury had not entered into an agreement to implement
a match.


              ELEMENTARY AND SECONDARY EDUCATION
The OIG’s efforts in elementary and secondary education this period focused on
several areas.


EDUCATION FLEXIBILITY PARTNERSHIP ACT OF 1999
The Education Flexibility Partnership Act of 1999, or Ed-Flex (P.L. 106-25), allows
states to grant waivers to local school districts exempting them from certain provisions
of the Elementary and Secondary Education Act (ESEA). Congress considered OIG’s
“Perspectives Paper,” described in our last Semiannual Report (pages 4 and 17), in
developing some of Ed-Flex’s provisions.

Act Includes OIG-Recommended                    education agencies and schools receiving
Provisions                                      waivers. Second, it requires each state
                                                to include, as part of its annual report on
The Act includes oversight and reporting        the results of such oversight, data
provisions that we recommended in our           demonstrating the degree to which
ESEA Perspectives Paper. First, it              progress has been made toward meeting
requires state education agencies to            the state’s educational objectives.
annually monitor the activities of local

SCHOOL-TO-WORK
This period we issued “An OIG Perspective on the Sustainability of State School-to-
Work Systems” (ACN: S07-90001, issued May 14, 1999) that summarizes findings from
four recent ED/OIG and Department of Labor OIG audits on the sustainability of state
school-to-work (STW) systems. Our report provided recommendations to assist the

                                           11
National School-to-Work Office in helping states to develop STW systems that will be
sustained after federal program funding ceases. Department officials concurred with
our recommendations.

SCHOOLWIDE PROGRAMS
The Elementary and Secondary Education Act (ESEA) gives schools greater latitude in
determining how to spend their federal funds. Instead of having to use these funds for
specific programs, schools may now use them in Schoolwide Programs, which by
definition employ strategies designed to improve the whole school.

OIG Staff Engage in Discussions on              Carolina to discuss ways to combine
Schoolwide Issues                               funds in schoolwide programs. We also
                                                gave presentations on the subject at
OIG staff were active participants and
                                                conferences in Texas, North Carolina,
contributors in many meetings with the
                                                Vermont, and Mississippi. We also met
Department, congressional staff, states
                                                with staff of the House of Representatives
and school districts on Schoolwide
                                                Title I Issues Group to discuss the flexi-
Program issues this period. We met with
                                                bility that Schoolwide Programs provide.
school officials in Tennessee and South


TITLE I FRAUD
The former principal of the Beth Rachel School for Girls, Brooklyn, New York, pled
guilty to a federal mail-fraud conspiracy. Investigation disclosed that he conspired to
obtain Title I and New York tax-levy funds to which the school was not entitled. The
defendant arranged to have individuals placed on the New York City Board of
Education payroll even though they were not entitled to the salary.

The defendant paid $1 million of restitution at his sentencing. Three Board of
Education employees involved in this scheme were sentenced to probation and fined
$1,000 each.


                    QUALITY OF NON-FEDERAL AUDITS
Participants in Department programs are required to submit annual financial
statements and compliance audits performed by an independent certified public
accountant (CPA). The Inspector General Act directs the Inspector General to take
appropriate steps to assure that work performed by non-federal auditors complies with
federal government auditing standards. OIG publishes audit guidance specific to
Department programs to assist CPAs in performing independent audits.

RESULTS OF REVIEWS
This period we performed 51 quality control reviews of audits performed by
independent public accountants.

Based on our reviews, we determined             q   22% were substandard requiring
                                                    corrective action by the auditor, and
q   66% were acceptable or contained
    only minor audit deficiencies,



                                           12
q   12% contained significant                     Federal Procurement and Nonprocure-
    inadequacies that the Department              ment Transactions.
    could not rely upon.
                                                  While not agreeing to the allegations or
For the audits containing significant             violations of applicable audit standards,
inadequacies we have, in some                     Daniel Falk and DGF&A agreed to be
instances, made referrals to the                  voluntarily excluded until July 1, 2001
American Institute of Certified Public            from participating in any primary and
Accountants and the appropriate State             lower tier covered transactions, pursuant
Boards of Accountancy for possible                to the Government-wide suspension and
disciplinary action. We also issued one           debarment regulations.
suspension and debarment action
against a non-federal auditor.                    Improving Audit Quality

OIG Suspends CPA Firm                             To improve audit quality, we
                                                  communicate the types of audit
After reviewing several audits of                 deficiencies identified during our quality
proprietary schools participating in Title        control reviews to other non-federal
IV programs, performed by the CPA firm            auditors in the form of “Dear CPA”
Daniel G. Falk & Associates (DGF&A),              letters. We will continue our efforts to
OIG concluded that the firm failed to             assure that any work performed by IPAs
adhere to professional standards. OIG             complies with the standards established
therefore issued to Daniel Falk and               by the Comptroller General as set forth
DGF&A a Government-wide Suspension                in the Inspector General Act.
and Notice of Proposed Debarment from




                                             13
              P.L. 95-452 REPORTING REQUIREMENTS


Sections 5(a)(1) and 5(a)(2) Significant Problems, Abuses and Deficiencies
   Significant Activities and Accomplishments ................................ .................... 1-13
   Investigation Services Cumulative Prosecutive Actions ................................ ..23-27

Section 5(a)(3)          Recommendations Described in Previous Semiannual
                         Reports on Which Corrective Action Has Not Been
                         Completed ................................ ................................ ................ 15

Section 5(a)(4)          Matters Referred to Prosecutive Authorities
    Statistical Profile ................................ ................................ .............................. 29

Sections 5(a)(5) and 6(b)(2)              Summary of Instances Where Information
                                          Was Refused or Not Provided*

Section 5(a)(6)          Listing of Audit Reports
    ED/OIG Reports on Education Department Programs and Activities ................. 17

Section 5(a)(7)          Summary of Significant Audits ................................ .................. 1
   Significant Activities and Accomplishments ................................ .................... 1-13

Section 5(a)(8)          Audit Reports Containing Questioned Costs
    Inspector General Issued Reports with Questioned Costs ................................ ..19

Section 5(a)(9)          Audit Reports Containing Recommendations That
                         Funds Be Put to Better Use
    Inspector General Issued Reports with Recommendations for
    Better Use of Funds................................ ................................ ......................... 20

Section 5(a)(10)         Summary of Unresolved Audit Reports Issued
                         Prior to the Beginning of the Reporting Period
    Unresolved Reports Issued Prior to April 1, 1999 ................................ .............. 21

Section 5(a)(11)        Significant Revised Management Decisions *

Section 5(a)(12)        Significant Management Decisions with Which OIG Disagreed *




*We have no instances to report.


                                                           14
                   RECOMMENDATIONS DESCRIBED IN PREVIOUS SEMIANNUAL REPORTS
                      ON WHICH CORRECTIVE ACTION HAS NOT BEEN COMPLETED

Section 5(a)(3) of the Inspector General Act requires a listing of each report resolved before the commencement of the reporting period for which
management has not completed corrective action. The reports listed below are OIG internal and nationwide audit reports and management
improvement reports.


                                                                                                                        TOTAL          SEMIANNUAL
REPORT                                                                                                     DATE       MONETARY           REPORT
NUMBER     AUDITEE/TITLE                                                                                 RESOLVED      FINDINGS         NO. PAGE

OFFICE OF SPECIAL EDUCATION AND REHABILITATIVE SERVICES

03-50201   COORDINATION AND COLLABORATION WITHIN THE OFFICE OF SPECIAL                                     09/30/97        *             34     18
            EDUCATION AND REHABILITATIVE SERVICES TO BETTER SERVE
            CUSTOMERS AND MANAGE PROGRAMS
11-50201   OFFICE OF SPECIAL EDUCATION AND REHABILITATIVE SERVICES                                         09/30/98        *             35     19
            SECRETARIAL REVIEW PROCESS IN NEED OF CHANGE

OFFICE OF POSTSECONDARY EDUCATION

04-40100   HELPING TO ASSURE EQUALIZED EDUCATIONAL OPPORTUNITIES WITH HEA, TITLE III                       08/31/95        *             31     11
            INSTITUTIONAL AID FUNDS - GLOBAL PERFORMANCE MEASURES NEEDED
17-30305   ANNUAL INTEREST GRANTS: IMPROVING THE PROCESS FOR PAYING THE REMAINING                          02/29/96     5,025,272        31     14
            GRANTS
04-60001   PROCESS ENHANCEMENTS IN THE HEA, TITLE III, INSTITUTIONAL AID PROGRAM                           08/31/96        *             32     09
            WOULD INCREASE PROGRAM EFFICIENCY, DESPITE LIMITED RESOURCES

STUDENT FINANCIAL ASSISTANCE

11-00010   OFFICE OF STUDENT FINANCIAL ASSISTANCE DID NOT ASSURE THAT ALL INSTITUTIONS                     09/30/93    33,800,000        24     63
            SUBMITTED AUDIT REPORTS OR THAT IT RECOVERED ALL MISSPENT FUNDS
11-90040   THE INSTITUTIONAL ELIGIBILITY PROCESS DOES NOT PROVIDE ADEQUATE ASSURANCE                       09/30/93      482,000         22     6
            THAT ONLY ELIGIBLE SCHOOLS PARTICIPATE IN THE TITLE IV PROGRAMS
92-05**    ED NEEDS TO STRENGTHEN STUDENT LOAN CURE PROCEDURES                                             09/30/93    154,000,000       24     12
17-30302   FINANCIAL AUDIT: FEDERAL FAMILY EDUCATION LOAN PROGRAM'S FINANCIAL STATEMENTS                   10/31/94         *            29     16
            FOR FISCAL YEARS 1993 AND 1992
11-30001   INCONSISTENT INSTITUTIONAL PELL GRANT REPORTING RESULTS IN SIGNIFICANT                          07/31/95        *             29     15
            EXPENDITURE DISCREPANCIES
05-50008   EFFECTIVENESS AND EFFICIENCY OF DEBT COLLECTION SERVICE - AREAS RELATED                         04/30/96        *             32     12
            TO INTERNAL OPERATIONS
11-50001   ACCURACY OF STUDENT AID AWARDS CAN BE IMPROVED BY OBTAINING INCOME DATA                         06/30/97    109,000,000       34     08
            FROM THE INTERNAL REVENUE SERVICE

OFFICE OF THE CHIEF FINANCIAL OFFICER
11-00333   GREATER EMPHASIS NEEDED TO DEOBLIGATE UNEXPENDED CONTRACT                                       03/31/94     7,500,000        26         17
            FUNDS AND CLOSE OUT CONTRACTS ON TIME
17-40302   FINANCIAL STATEMENT AUDIT: U.S. DEPARTMENT OF EDUCATION                                         08/31/95        *             31         12
            FEDERAL FAMILY EDUCATION LOAN PROGRAM FOR THE YEARS
            ENDED SEPTEMBER 30, 1994 AND 1993
                                                                                                            TOTAL     SEMIANNUAL
REPORT                                                                                          DATE      MONETARY      REPORT
NUMBER     AUDITEE/TITLE                                                                      RESOLVED     FINDINGS    NO. PAGE

OFFICE OF THE CHIEF FINANCIAL OFFICER (cont.)

17-48320   FINANCIAL STATEMENT AUDIT OF THE U.S. DEPARTMENT OF EDUCATION                       09/30/95       *        30    20
            WILLIAM D. FORD FEDERAL DIRECT LOAN PROGRAM
17-40303   THE REPORT OF INDEPENDENT ACCOUNTANTS ON THE U.S. DEPARTMENT OF EDUCATION FISCAL    03/31/97       *        33    14
            YEAR 1995 DEPARTMENT-WIDE FINANCIAL STATEMENTS




 * Non-monetary findings only
** Management improvement report
            ED/OIG REPORTS ON EDUCATION DEPARTMENT PROGRAMS AND ACTIVITIES
                                                 (April 1, 1999 – September 30, 1999)


Section 5(a)(6) of the Inspector General Act requires a listing of each report completed by OIG during the reporting period. A total of 14 reports were completed
by ED/OIG auditors. These reports are listed below. In addition, we issued 16 alternative products, which include action memoranda, management information
reports, special projects, and field pricing reviews.

                                                                                                        QUESTIONED
                                                                                                            COSTS
                                                                                                          (excluding      UNSUPPORTED         BETTER USE
ACN           AUDITEE/REPORT TITLE                                                STATE    ISSUED        unsupported)        COSTS             OF FUNDS

STUDENT FINANICAL ASSISTANCE

A02-80005     UNIVERSIDAD INTERAMERICANA DE PUERTO RICO NEEDS TO IMPROVE             PR    JUL-99                            1,268,256
               ITS ADMINISTRATION OF TITLE IV PROGRAMS
A03-70010     AUDIT OF THE U.S. DEPARTMENT OF EDUCATION’S CLOSED SCHOOL              DC    JUN-99       535,000              23,523,432
               PROCESS
A03-70012     REVIEW OF THE STUDENT STATUS CONFIRMATION REPORTING PROCESS            DC    AUG-99             *
A05-80016     CITY COLLEGES OF CHICAGO’S ADMINISTRATION OF THE FEDERAL               IL    JUL-99       278,600               308,106
               PELL GRANT PROGRAM
A05-90009     EAST-WEST UNIVERSITY’S ADMINISTRATION OF THE STUDENT                   IL    MAY-99          4,548              40,582
               FINANCIAL ASSITANCE PROGRAMS
A05-90040**   REVIEW OF GEMCOR INC.’S YEAR 2000 READINESS PLANS                      IL    JUN-99             *
A05-90046**   REVIEW OF NEW HAMPSHIRE HIGHER EDUCATION ASSISTANCE                    NH    AUG-99             *
               FOUNDATION’S YEAR 2000 READINESS
A06-80001     IMPROVING THE PROCESS FOR FORGIVING STUDENT LOANS                      DC    JUN-99              *                               35,000,000
A06-80011     AUDIT OF TEXAS CAREERS’COMPLIANCE WITH THE                             TX    AUG-99      2,021,119
               85 PERCENT RULE
A06-80012     AUDIT OF COLLEGIATE SYSTEMS, INC. COMPLIANCE WITH THE                  OK    AUG-99      1,246,835
               85 PERCENT RULE
A06-90007**   REVIEW OF THE YEAR 2000 READINESS PLANS OF MITCHELL SWEET              AZ    JUN-99             *
               AND ASSOCIATES, TEMPE, ARIZONA
A09-80029     PACIFIC TRAVEL TRADE SCHOOL ELIGIBILITY TO PARTICIPATE                 CA    JUN-99     11,969,719
               IN TITLE IV PROGRAMS
A09-90002     UNITED EDUCATION INSTITUTE ELIGIBILITY TO PARTICIPATE                  CA    JUL-99     21,702,354
               IN TITLE IV PROGRAMS
A11-80004     REVIEW OF THE DEPARTMENT’S ACQUISITION PROCESS FOR                     DC    MAY-99             *
               OFFICE OF STUDENT FINANCIAL ASSISTANCE PROGRAMS (OSFAP)
               INFORMATION SYSTEMS
A17-90001**   REVIEW OF NON-TAX DELINQUENT DEBT AT THE U.S. DEPARTMENT               DC    SEP-99
               OF EDUCATION
SFA 99-13     SUCCESS INSTITUTE OF BUSINESS, INC., HOUSTON, FAILED TO ENSURE         DC    JUN-99             *
               STUDENT ELIGIBILITY AND PAY REFUNDS ON BEHALF OF STUDENTS
SFA 99-14     DEBT COLLECTION SERVICE CAN STRENGTHEN CONTROLS OVER                   DC    JUL-99             *
               FEES PAID TO COLLECTION AGENCIES THAT USE DIRECT LOAN
               CONSOLIDATIONS TO COLLECT DEFAULTED STUDENT LOANS



                                                                                                     QUESTIONED
                                                                                                          COSTS
                                                                                                        (excluding    UNSUPPORTED   BETTER USE
ACN             AUDITEE/REPORT TITLE                                                  STATE   ISSUED   unsupported)      COSTS       OF FUNDS

OFFICE OF VOCATIONAL AND ADULT EDUCATION

S07-90001       AN OIG PERSPECTIVE ON THE SUSTAINABILITY OF STATE                       DC    MAY-99        *
                 SCHOOL-TO-WORK SYSTEMS

OFFICE OF THE DEPUTY SECRETARY

S11-90016**     REVIEW OF YEAR 2000 COMPLIANCE FOR PROCESSING, DELIVERY                 DC    JUL-99        *
                 AND ADMINISTRATION OF STUDENT FINANCIAL ASSISTANCE PROGRAMS

OFFICE OF CHIEF FINANCIAL OFFICER

A04-80009       ASSESSMENT OF DIRECT CONSOLIDATION LOAN PROGRAM                         DC    MAY-99        *
                 ADMINISTRATION AND OPERATIONS BY EDS, INC. SINCE
                 DECEMBER 1, 1997
F03-90011       RESULTS OF FIELD PRICING REVIEW PERFORMEND RELATING                     VA    JUN-99        *
                 TO THE CONTRACT PROPOSAL (NUMBER 5100-089A) SUBMITTED
                 BY RATHEON E-SYSTEMS, INC., (RESYS ) FALLS CHURCH, VA, UNDER
                 THE U.S. DEPARTMENT OF EDUCATION (ED) CONTRACT NUMBER
                 PM930150-01
A07-80018       AUDIT OF TITLE IV WIDE AREA NETWORK CONTRACT                            IA    MAY-99   249,900
                 NATIONAL COMPUTER SYSTEMS, IOWA CITY, IA
F07-90005       PREAWARD REVIEW OF NATIONAL COMPUTER SYSTEMS’                           IA    APR-99        *
                 CONTRACT PROPOSAL SUBMITTED UNDER REQUEST FOR
                 PROPOSAL ED-98-S-0020, “PUBLIC INQUIRY CONTRACT”
F07-90019       PREAWARD REVIEW OF NATIONAL COMPUTER SYSTEMS’                           IA    JUN-99        *
                 CONTRACT PROPOSAL SUBMITTED UNDER REQUEST FOR
                 PROPOSAL ED-98-R-0035, EDITORIAL SERVICES CONTRACT
S07-90024       PUBLIC INQUIRY CONTRACT PREAWARD REVIEW, PROPOSAL                       IA    JUN-99        *
                 ED-98-S-0020 SUPPLEMENTAL REQUEST – VERIFICATION OF
                 DIRECT LABOR AND INDIRECT RATES
S07-90026       REQUEST FOR AUDIT ASSISTANCE – NATIONAL COMPUTER SYSTEMS                IA    MAY-99        *
                 VERIFICATION OF INDIRECT AND FEE RATES
A11-90004       REVIEW OF THE GRANT ADMINISTRATION AND PAYMENT SYSTEM                   DC    MAY-99        *
                 (GAPS) CONFIGURATION MANAGEMENT PROCESS
S11-80015       YEAR 2000 (Y2K) READINESS OF GUARANTY AGENCIES                          DC    MAY-99        *
SFA 99-11       KEY PERSONNEL REQUIREMENTS SHOULD BE CLARIFIED PRIOR TO AWARD           DC    MAY-99        *
                 OF THE EDITORIAL SERVICES CONTRACT
SFA 99-12       ALLOWING CONTRACTING OFFICER’S TECHNICAL REPRESENTATIVES TO             DC    MAY-99        *
                 AUTHORIZE WORK IS CONTRARY TO PROCUREMENT REGULATIONS




*      Non-monetary findings only
**     Information Report
A      Audit
F      Field Pricing Report
S      Other OIG Products (e.g., Inspections, Information Reports, Special Studies)
SFA    Student Financial Assistance Action Memo
                            INSPECTOR GENERAL ISSUED REPORTS
                                                       1
                                 WITH QUESTIONED COSTS




                                                NUMBER               QUESTIONED                UNSUPPORTED 2

A.       For which no management
         decision has been made by
         the commencement of the
         reporting period (as adjusted)             29               $ 109,367,014             $ 17,458,187

B.       Which were issued during
         the reporting period                        9                    63,148,451                25,140,376

         Subtotals (A + B)                          38               $ 172,515,465             $    42,598,563

C.       For which a management
         decision was made during
         the reporting period                         7              $    3,830,098            $      1,864,004

         (i) Dollar value of
             disallowed costs                                             1,512,821                       769,709

         (ii) Dollar value of
              costs not disallowed                                       2,317,277                   1,094,295

D.       For which no management
         decision has been made by
         the end of the reporting
         period                                      31              $ 168,685,367             $ 40,734,559

E.       For which no management
         decision was made within
         six months of issuance                      14              $ 72,061,009              $ 11,828,885




     1
         None of the audits reported in this table were performed by the Defense Contract Audit Agency.
     2
         Included in questioned costs.
                          INSPECTOR GENERAL ISSUED REPORTS
                             WITH RECOMMENDATIONS FOR
                                BETTER USE OF FUNDS1



                                                                   NUMBER                   DOLLAR VALUE


A. For which no management
   decision has been made by
   the commencement of the
   reporting period (as adjusted)                                        3                        $ 17,200,000

B. Which were issued during
   the reporting period                                                  1                              35,000,000

            Subtotals (A + B)                                            4                        $ 52,200,000

C. For which a management
   decision was made during
   the reporting period                                                  1                               2,900,000

   (i)      Dollar value of recommendations
            that were agreed to by
            management                                                   0                                      0

   (ii)     Dollar value of recommendations
            that were not agreed to
            by management                                                1                               2,900,000

D. For which no management
   decision has been made by
   the end of the reporting
   period                                                                3                        $ 49,300,000

E. For which no management
   decision was made within
   six months of issuance                                                2                        $ 14,300,000




   1
       None of the audits reported in this table were performed by the Defense Contract Audit Agency.
                            UNRESOLVED REPORTS ISSUED PRIOR TO APRIL 1, 1999

Section 5(a)(10) of the Inspector General Act requires a listing of each report issued before the commencement of the reporting period for which no
management decision has been made by the end of the reporting period.

                                                                                                TOTAL                 PROJECTED         SEMIANNUAL
REPORT                                                                           DATE        MONETARY        REASONS MANAGEMENT         REPORT PAGE
NUMBER AUDITEE/TITLE                                                       ST   ISSUED        FINDINGS       OVERDUE   DECISION          NO.   NO.

OFFICE OF ELEMENTARY AND SECONDARY EDUCATION

02-56113   VIRGIN ISLANDS DEPARTMENT OF EDUCATION                          VI   02/17/95       10,375,000       05           ***         30     17
02-50200   THE PUERTO RICO DEPARTMENT OF EDUCATION MUST INSTITUTE A TIME   PR   11/14/97                *       05           ***         36     13
            DISTRIBUTION SYSTEM

STUDENT FINANCIAL ASSISTANCE

09-10007   WESTERN TRUCK SCHOOL                                            CA   09/10/92        8,834,503       01         03/31/00     25       78
05-40007   REPORT ON THE TRANSITIONAL GUARANTY AGENCY'S                    MN   06/02/95                *                               31       7
            ROLE IN GUARANTY AGENCY TRANSITION
06-60006   ELIMINATING ADVANCE FUNDING WOULD ENHANCE THE INTEGRITY         DC   08/28/97               *                                35       13
            OF THE FEDERAL PELL GRANT PROGRAMS
03-60009   ADMINISTRATION OF THE WILLIAM D. FORD FEDERAL DIRECT LOAN       DC   10/15/97               *                   12/31/99     36       12
            PROGRAM BY SCHOOLS
05-70004   STRATEGIC PLANNING AND PERFORMANCE MEASUREMENT FOR              DC   11/12/97               *        01                      36       16
            GUARANTOR AND LENDER OVERSIGHT SERVICE ACTIVITIES CAN
            HELP FOSTER ACHIEVEMENT OF AN EFFICIENT AND EFFECTIVE
            FEDERAL FAMILY EDUCATION LOAN PROGRAM
06-70005   PROFESSIONAL JUDGEMENT AT YALE UNIVERSITY                       CT   03/13/98            5,469       01         03/31/00     36       18
07-70002   INCOME CONTINGENT REPAYMENT: COST ATTRIBUTION AND BORROWER      MO   06/01/98                *                               37       19
            STUDIES COULD ASSIST TO MEET OBJECTIVES OF FEDERAL FINANCIAL
            REPORTING
06-70004   APPLICANTS WITH DEFAULTED STUDENT LOANS CONTINUE TO RECEIVE     DC   06/23/98               *                                37       18
            FINANCIAL AID
06-70009   PROFESSIONAL JUDGEMENT AT THE UNIVERSITY OF COLORADO            CO   07/17/98           15,082       01         03/31/00     37       17
09-70015   ASSOCIATED TECHNICAL COLLEGE (ATC) ELIGIBILITY OF               CA   09/09/98        8,600,000       01         03/31/00     37       16
            INSTITUTIONS TO PARTICIPATE IN TITLE IV PROGRAMS AND OTHER
            ISSUES
04-70016   REVIEW OF THE DEPARTMENT’S OVERSIGHT OF SCHOOLS PARTICIPATING   DC   09/25/98               *                                37       15
            IN THE WILLIAM D. FORD FEDERAL DIRECT LOAN PROGRAM
09-80023   ACADEMY PACIFIC BUSINESS & TRAVEL COLLEGE ELIGIBILITY TO        CA   12/21/98        6,649,689       01         03/31/00
            PARTICIPATE IN TITLE IV PROGRAMS
07-23545   MISSOURI STATEWIDE                                              MO   04/01/93        1,048,768       01                      **
09-10005   CALIFORNIA STUDENT AID COMMISSION                               CA   09/10/93       41,100,000       01                      27       17
09-33114   STATE OF CALIFORNIA                                             CA   12/24/93        4,191,032       01                      28       18
07-33123   MISSOURI STATEWIDE                                              MO   03/07/94          187,530       01                      **
05-30010   NORTHSTAR GUARANTEE INCORPORATED                                MN   08/16/94          619,287       01                      29       31


                                                                                                 TOTAL                   PROJECTED      SEMIANNUAL
REPORT                                                                                 DATE      MONETARY      REASONS MANAGEMENT   REPORT PAGE
NUMBER AUDITEE/TITLE                                                             ST   ISSUED      FINDINGS     OVERDUE  DECISION     NO.   NO.

04-60147    REVIEW OF SELECTED ASPECTS OF THE KENTUCKY HIGHER EDUCATION          KY   02/18/97     1,263,251     01                 34     9
             ASSISTANCE AUTHORITY’S ADMINISTRATION OF THE FEDERAL
             FAMILY EDUCATION LOAN PROGRAM
06-70001    NSLDS CAN BE ENHANCED IF LOAN PRINCIPAL AND INTEREST                 DC   09/30/98            *      01                 37     17
             BALANCES AND STATUSES ARE UPDATED WITH LENDER DATA
11-70002    AUDIT OF THE POSTSECONDAY EDUCATION PARTICIPANTS                     DC   02/12/99            *
             SYSTEM DEVELOPMENT
11-70010    REVIEW OF THE DEPARTMENT’S REQUIREMENTS DEFINITION &                 DC   03/30/99            *
             TESTING PROCESSES FOR THE LOAN ORIGINATION AND LOAN
             CONSOLIDATION SYSTEMS


OFFICE OF VOCATIONAL AND ADULT EDUCATION

04-53670    FLORIDA STATEWIDE                                                    FL   10/04/95     2,855,402     05      12/31/99   **
04-43134    FLORIDA STATEWIDE                                                    FL   12/05/94       615,996     05      12/31/99   **
07-70004    STATE OF NEW MEXICO: SUSTAINABILITY OF THE SCHOOL-TO-WORK            NM   05/27/98             *     04                 37     21
             OPPORTUNITIES
07-80004    STATE OF MISSOURI SUSTAINABILITY OF THE SCHOOL-TO-WORK               MO   11/30/98            *      04
             OPPORTUNITIES PROGRAM


OFFICE OF THE DEPUTY SECRETARY

17-70007    MOVING TOWARDS A RESULTS-ORIENTED ORGANIZATION:                      DC   09/24/98            *                         37     14
             A REPORT ON ED’S IMPLEMENTATION OF THE RESULTS ACT


OFFICE OF BILINGUAL EDUCATION AND MINORITY LANGUAGES AFFAIRS

04-60152    REVIEW OF MONITORING CONTROLS USED TO ENSURE FULFILLMENT OF          DC   06/30/97            *                         35    17
             TITLE VII BILINGUAL EDUCATION GRANT PROGRAM OBJECTIVES


OFFICE OF THE CHIEF FINANCIAL OFFICER

11-80013    REVIEW OF GAPS SECURITY                                              DC   09/30/98            *      01      05/31/00   37     12



NOTES
* Non-monetary findings only
** Not individually written up
*** Information not provided by Department principal operating component

REASON CODES FOR REPORTS OVER SIX MONTHS OLD
01 - Administrative delays
02 - Delay in receiving auditee comments or additional information fromauditee
03 - Delay in receiving additional information from nonfederal auditor.
04 - Lack of staff
05 - Cooperative Audit Resolution and Oversight Initiative pilot state
                                     INVESTIGATION SERVICES
                                 CUMULATIVE PROSECUTIVE ACTIONS

         DEFENDANT/                       INDICTED/                                  CIVIL    ADJUDICATED
           SUBJECT                       INFORMATION   CONVICTED        SENTENCED   MATTERS      VALUE




        SCHOOL CASES
Avery, Ronald                                     O         O                X                   $250,000
Barnes, Richard                                   X         X
Cefaratti, Frank                                  O         O                X                   $846,000
                Cefaratti-Diaz, Carole            O         X
                       Malavet, Gloria            O         O                X                    $1,000
                      Perez, Modesta              O         O                X                    $1,000
Cox, Wayne                                        X


Larnes, Georgia                                   X         X
Jensen, Susan                                     O         O                X                   $914,000
Nelson, Steven R.                                 O         X
Pretrial Diversion - Employee                                                X                   $65,000
Petrusa, Elizabeth                                X
                     Bengston, Winnie             X
Trim Poret, Japenia                               X         X                X                   $44,635
Weaver, Judy                                      X         X
Williams, Kenneth                                 X         X                X                    $1,000
Wrenn, Robert                                     X


                                                          Total Value
                                                       School Cases:                            $2,122,635




         O = Action reported in previous period

         X = Action reported in current period
                                       INVESTIGATION SERVICES
                                   CUMULATIVE PROSECUTIVE ACTIONS

           DEFENDANT/                     INDICTED/                              CIVIL    ADJUDICATED
            SUBJECT                     INFORMATION     CONVICTED   SENTENCED   MATTERS      VALUE


    CONSULTANT CASES and
        CLIENT CASES


Molitor, Michael                                    O       O            X                   $125,000
Amos, Eddie                                                                      X
Baska, Kathleen                                                                  X
Baska, Michael                                                                   X
Behen (Roberts), Kelly                                                           X            $3,811
Brawner, Laleta A.                                                               X           $12,210
Burnett, Reynard                                                                 X            $7,775
Chandler, Unique                                                                 X            $4,600
Decoster, Andrea M.                                                              X            $5,055
Hill, Kamasi                                                                     X            $6,150
Hill, Nonzwakazi T.                                                              X           $17,760
Hurst, Kareem J.                                                                 X            $4,600
Johnson, Lamarr A.                                                               X            $7,485
Levens, Jamilah                                                                  X            $7,797
Levens, Kamilah                                                                  X            $9,952
Lewis, Kiana                                                                     X            $4,300
Lisbon, Tracie L.                                                                X            $7,725
Lockhart, Derrick                                                                X            $3,450
Lockhart, Lameitre C.                                                            X           $15,190
Maddox, Kea R.                                                                   X            $8,400
Ormiston, Samuel                                                                 X            $2,500
Pondexeter, Kijuanna S.                                                          X            $8,655
Rizza, Michael                                                                   X
San, Keo                                                                         X
Sanders, Amber O.                                                                X            $3,450
Schwarten, Rebecca                                                               X
Smith, Brice                                                                     X


           O = Action reported in previous period

           X = Action reported in current period
                                     INVESTIGATION SERVICES
                                 CUMULATIVE PROSECUTIVE ACTIONS

         DEFENDANT/                     INDICTED/                                     CIVIL    ADJUDICATED
           SUBJECT                    INFORMATION      CONVICTED         SENTENCED   MATTERS      VALUE


Waterfield, Christopher                                                               X            $1,000
Young, Kyman J.                                                                       X            $9,435


                                                           Total Value
                                                           Consultant
                                                               Cases:                             $276,300


FOREIGN STUDY FFELP
PROJECT
Glenn, Lamart                                     O          X
                     Bandy, Howard                O          X                X                   $18,500
                    Dalton, Fredrick              O          X                X                   $10,500
Metellus, Jacques Ernst                           O          O                X                   $27,360
Rivera, Jose                                      X          X




                                                          Total Value
                                                        Foreign Study
                                                        FFELP Cases:                              $56,360


        NON SFA CASES

Frankel, Hertz                                    X          X                X                  $1,000,000
                   LaBianca, Daniel               O          O                X                    $1,000
                   McCleer, Gordon                O          O                X                    $1,000
                       Rehm, Robert               O          O                X                    $1,100


                                                      Total Value Non-
                                                           SFA Cases:                            $1,003,100


     SFA RECIPIENT CASES
Anderson, Derek                                   O          X                X                   $86,274
Bright, Edwina Diane                              X


         O = Action reported in previous period

         X = Action reported in current period
                                     INVESTIGATION SERVICES
                                 CUMULATIVE PROSECUTIVE ACTIONS

         DEFENDANT/                     INDICTED/                                    CIVIL    ADJUDICATED
              SUBJECT                 INFORMATION      CONVICTED        SENTENCED   MATTERS      VALUE


Easton, Michael                                   O          O               X                    $7,040
Hall, Phyllis Jean                                X
Lewis, Patrice                                    O          X               X                   $38,848
Miller, Wendy                                     O          O               X                   $17,299
Moran, Edgardo                                    O          O               X                    $4,000
Mounce, Susan L.                                  X          X
Nasorri, Mashallah                                X
Nwoke, Anthony                                    O          O               X                    $9,426
Pantera, James                                    O          O               X                   $57,043
Payne, Kenneth                                    X
Perrin, Glory                                     O          X               X                    $5,040
Pretrial Diversion – Student A                                               X                   $26,245
Pretrial Diversion – Student B                                               X                   $26,245
Silva, Kary                                       O          O               X                     $0
Spears, Angela                                    O          X               X                   $54,609
Tshimanga Kolanga, Jean-Claude                    O          O               X                   $93,000
                 Tshimanga, Casondra              O          O               X                   $93,687
Wells III, William Kenneth                        X          X
Pretrial Diversion – Student C                                               X                    $6,889


                                                      Total Value SFA
                                                      Recipient                                  $525,645
                                                      Cases:


              CIVIL CASES

Boyd, Tony                                                                           X           $14,000
CSC Accounts Management, Inc                                                         X
Corus Bancshares Inc.                                                                X




         O = Action reported in previous period

         X = Action reported in current period
                                     INVESTIGATION SERVICES
                                 CUMULATIVE PROSECUTIVE ACTIONS

         DEFENDANT/                     INDICTED/                                      CIVIL    ADJUDICATED
           SUBJECT                    INFORMATION      CONVICTED          SENTENCED   MATTERS      VALUE


Mautner, Irwin                                    O          O                 O       X          $1,000,000
       Programming & Systems Inc                  O          O                 O       X           $515,000


                                                      Total Value Civil
                                                      Cases:                                      $1,529,000


       EMPLOYEE CASES
Edens, Wesley                                     O          O                 X                   $11,412


                                                      Total Value
                                                      Employee Case:                               $11,412




         O = Action reported in previous period

         X = Action reported in current period
                                   COLLECTIONS FROM AUDITS AND INVESTIGATIONS


The House Report (H. Rept. 105-635) to accompany H.R. 4274 directs the Inspector General of the U.S. Department of Education to submit
reports detailing recoveries and savings generated by its work. The following tables reflect that information.


AUDIT
               RPTS                                    RPTS WITH     RECOMMENDED
           ISSUED WITH         QUEST/UNSUPP       QUEST/UNSUPP       QUEST/UNSUPP       MANAGEMENT     WRITE OFFS       COLLECTED/
   FY      QUEST/UNSUPP        RECOMMENDED             RESOLVED        RESOLVED           DECISION     ADJUSTMENTS      RECOVERED          BALANCE

 FY 98          11              $17,011,401                8           $6,162,004         $1,669,155        0            $1,669,155*           0

 FY 99          11              $69,804,793                1            $131,653           $26,482          0                 $22,215       $4,267

 TOTAL          22              $86,816,194                9           $6,293,657         $1,695,637        0            $1,691,370         $4,267



*$769,709 collected as a prospective rate adjustment



INVESTIGATION
                                              FINES, RESTITUTIONS,                  AMOUNT COLLECTED      AMOUNT COLLECTED
     FY              CASES *          SETTLEMENTS AND JUDGEMENTS                     CURRENT PERIOD         PRIOR PERIOD(s)             AMOUNT COLLECTED


   FY 98               293                        $48,208,055                          $1,658,800               $29,068,289                $30,727,089

   FY 99               133                        $19,154,906                          $7,001,533                                          $7,001,533

  TOTALS               426                        $67,362,961                          $8,660,333               $29,068,289                $37,728,622




* Number of cases for which collection was ordered during the fiscal year.
                                                   STATISTICAL PROFILE
                                             April 1 – September 30, 1999


                                                                                                           Six-month                  Fiscal
                                                                                                               Period                  Year
                                                                                                              Ending                 Ending
                                                                                                             9/30/99                9/30/99

OIG AUDIT REPORTS ISSUED.........................................................................14                                      26
Questioned Costs....................................................................................$ 38,008,075              $ 44,664,417
Unsupported Costs .................................................................................$ 25,140,376               $ 25,140,376
Recommendations for Better Use of Funds .............................................$ 35,000,000                             $ 35,000,000

OTHER OIG PRODUCTS (Inspections, Action Memoranda, Information Reports,
    Special Studies, and Field Pricing Reviews).............................................................. 16                         45

OIG AUDIT REPORTS RESOLVED BY PROGRAM MANAGERS........... .. ............22                                                              28
Questioned Costs Sustained. ..................................................................$                743,112        $    3,342,821
Unsupported Costs Sustained.................................................................$                  769,709        $      805,847
Additional Disallowances Identified by Program Managers ......................$                                118,521        $     334,8411
Management Commitment to Better Use of Funds..................................$                                      0        $            0

INVESTIGATIVE CASE ACTIVITY
Cases Opened........................................................................................................842                 204
Cases Closed .......................................................................................................... 99              220
Cases Active at End of Period................................................................................ 302                       302
Prosecutorial Decisions........................................................................................... 80                   124
  Accepted .............................................................................................................583              89
  Declined .............................................................................................................224              35

INVESTIGATION RESULTS
Indictments/Informations ...................................................................................... 19                        47
Convictions/Pleas ................................................................................................... 19                  52
Fines Ordered .........................................................................................$       19,705         $       77,542
Restitutions Ordered ..............................................................................$ 3,835,063                $   10,556,256
Restitution Payments Collected ..............................................................$ 2,235,484                      $    9,199,110
Civil Settlements (number)......................................................................$                   295       $           92
Civil Settlements/Judgments .................................................................$ 1,701,6256                     $   8,521,1087


1
  Includes $216,320 not reported in our last Semiannual Report.
2
  Includes four cases that were not reported in our last Semiannual Report.
3
  Includes twenty-one cases that were not reported in our last Semiannual Report.
4
  Includes seven cases that were not reported in our last Semiannual Report.
5
  Includes three actions that were not reported in our last Semiannual Report.
6
  Includes $17,025 that was not reported in our last Semiannual Report.
7
  Includes $181,311 that was not reported in Semiannual Report No. 37 (page 46).
